January 21, 2011

STEVEN R. PHELPS
MANAGER, SOX MANAGEMENT CONTROLS AND INTEGRATION

SUBJECT: Interim Management Advisory – Fiscal Year 2011 Financial Testing
         Compliance Oversight Reviews – San Francisco Processing and
         Distribution Center Business Reply Mail – San Francisco, CA
         (Report Number FF-MA-11-003)

This report presents interim results for the U.S. Postal Service Office of Inspector
General’s (OIG) fiscal year (FY) 2011 review of the U.S. Postal Service Financial
Testing Compliance (FTC) group’s Business Reply Mail (BRM) testing at the San
Francisco Processing and Distribution Center (P&DC), San Francisco, CA (Project
Number 11BR003FF003), performed November 18, 2010. The San Francisco P&DC
BRM is in the San Francisco District of the Pacific Area. At the conclusion of FY 2011,
we will summarize the results for all reviews in reports to Postal Service Headquarters.

To comply with Section 404 Sarbanes-Oxley (SOX) Act of 2002 requirements, the
Postal Service must report on the effectiveness of the agency’s internal controls to
ensure accurate financial reporting. It must submit an annual assessment to the Postal
Regulatory Commission (PRC) who monitors and manages the Postal Service’s
compliance with SOX. The Postal Service established the Financial Control and Support
group to oversee the work of the FTC. FTC conducts tests of key financial reporting
controls. Senior Postal Service leaders use the results to identify and correct internal
control deficiencies and report the overall results to the PRC. We conducted this
oversight review in support of the independent accounting firm’s reliance on Postal
Service management’s testing, and overall audit opinions on the Postal Service’s
financial statements and internal controls over financial reporting.

The overall objective of our review is to evaluate whether the FTC properly conducted
and documented their examination of key SOX financial reporting controls.




                                   Restricted Information
Fiscal Year 2011 Financial Testing Compliance Oversight Reviews –                                   FF-MA-11-003
San Francisco Processing and Distribution Center Business Reply Mail – San Francisco, CA


To perform this work, we observed FTC analysts conduct tests and reviewed their
supporting documentation. We performed this review from November 2010 through
January 2011 in accordance with the Quality Standards for Investigations.1

Conclusion

Based on our review of FTC’s work, FTC analysts properly tested and documented their
examination of key SOX financial reporting controls. See Appendix A for the results of
our review.

The interim FTC oversight review advisories will be issued to the SOX manager in final
format. At the conclusion of the fiscal year, the OIG will summarize the results of all its
FTC oversight reviews and include recommendations, if applicable, in a report to Postal
Service Headquarters management. Management will have the opportunity to formally
respond to the summary report at that time.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Carla Tate, manager, at
510-285-9026, or me at 510-285-9024.

      E-Signed by Kevin Ellenberger
    VERIFY authenticity with ApproveIt
        Friday, 21 January, 2011



for Linda J. Libician-Welch
Director, Field Financial – West

Attachment

cc:       Douglas G. Germer
          Corporate Audit and Response Management




1
 These standards were last promulgated by the President’s Council on Integrity and Efficiency (PCIE) and the
Executive Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of
1978 as amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and
Efficiency (CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Investigations have not
been amended to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.



                                                        2
                                             Restricted Information
       Fiscal Year 2011 Financial Testing Compliance Oversight Reviews –                          FF-MA-11-003
       San Francisco Processing and Distribution Center Business Reply Mail – San Francisco, CA


                                                        APPENDIX A: REVIEW RESULTS

Site Name                                                             San Francisco P&DC
Finance Number-Unit ID                                                0568290008
Location Type                                                         BRM
Scope Period Under Review                                             October 1 – November 17, 2010
FTC Review Program Version and Date                                   BRM PostalOne! – November 10, 2010
FTC Team                                                              West




                                                                                             Did FTC
                                                                              Did FTC       adequately     Did the OIG agree
                                                           Did the OIG      perform the     document           with FTC’s
                                                               have            step in       its work         exceptions/
                                      Did FTC have         exceptions/      accordance      performed       findings (or no
  FTC Review      FTC Review           exceptions/        findings that         to its        and the         exceptions/
 Step/Control          Step          findings in this     FTC did not?       program?        results?          findings)?
      #            Description       step? (Yes/No)          (Yes/No)         (Yes/No)       (Yes/No)           (Yes/No)
Control         Confirm that               No                   No               Yes            Yes                Yes
#108CA10/11     units are
- BRM           documenting
Controls -      revenue and
PostalOne!      providing
Procedures      customers an
                invoice for BRM;
                Confirm the unit
                is documenting
                insufficient
                funds and
                canceling BRM
                transaction(s)
                from the
                PostalOne!
                System.




                                                                            3
                                                                 Restricted Information
